       Peace Corps
       Office of Inspector General




            Map of Countries Visited by OIG, FYs 2009 - 2011




Recurring Issues: OIG Post Audits and Evaluations
             Fiscal Years 2009 - 2011
                                                               April 2012
                                                SUMMARY
OIG Work
At the end of FY 2011, the Peace Corps’ 70 overseas posts supported over 9,000 Volunteers in
76 countries around the world. 1 Country directors managed each post and oversaw
administrative, programming and training, medical, and safety and security personnel. The
Office of Inspector General (OIG) provides the agency with independent audits and evaluations
of these overseas posts. OIG also reviews domestic offices and programs and conducts
investigations.

Our work promotes greater efficiency and effectiveness by identifying best management
practices, recommending program improvements, and the means by which to comply with Peace
Corps policies and federal regulations. The overseas posts audits determine whether the financial
and administrative operations are functioning effectively and comply with Peace Corps policies
and federal regulations. The country evaluations identify best practices and recommend program
improvements to comply with Peace Corps policies. See Appendix A for information about our
audit and evaluation methodologies used at overseas posts.

During fiscal years (FYs) 2009 -2011, OIG issued 42 post audit and country program evaluation
reports of 35 overseas posts. We issued reports for audits of 19 posts, country evaluations of nine
posts, and both an audit and country evaluation of seven posts. See Appendix B, table 3, for the
full listing. Our work identified best practices and areas of weakness. This report summarizes the
most common OIG issues and recommendations.

Recurring Issues and Recommendations
OIG tracks report issues and recommendations using 32 category codes that represent programs
or functions at overseas posts. Table 1 shows the issues that occur most frequently during post
audits and evaluations and the percent of reports issued from 2009-2011 that contained
recommendations in those areas. 2

                  Table 1. Percent of OIG Reports Identifying Subject Area Issues




1
    Reported in Peace Corps’ Performance and Accountability Report, Fiscal Year 2011
2
    See Appendix C for more detailed charts of OIG issues.

Reoccurring Issues: Fiscal Years 2009 - 2011                                                      i
Based on our review of 42 overseas post audit and evaluation reports we found the following
recurring issues:

     • The majority of posts visited struggled to fully implement agency safety and security
       policies and procedures, specifically with regards to emergency action plans and
       consolidation points, housing checks, site locator forms, and staff security background
       certifications.

     • Most posts we visited had not developed effective controls over common business
       processes: including managing personal property and vehicles, complying with policies
       over imprest fund management, and implementing the agencies controls over medical
       supplies. These processes were largely manual operations that relied heavily on the
       knowledge and expertise of the staff.

     • Many posts we visited needed to improve their programming and Volunteer training,
       specifically in the areas of site development, adequacy and applicability of Volunteer
       training, and coordination with host country ministries and project partners.

How to use this information
The Peace Corps has taken steps to strengthen support to Volunteers and improve business
operations, but must provide additional oversight to posts, dedicated resources, and training to
support implementation of new and revised policies and procedures intended to improve
efficiency and effectiveness. The objective of this report is to identify issues that have continued
to be problems for posts and require management’s attention to help remediate.




Reoccurring Issues: Fiscal Years 2009 - 2011                                                       ii
                                            REOCCURRING ISSUES
SAFETY AND SECURITY

The majority of posts visited struggled to fully implement the agency’s safety and security
policies and procedures, specifically in regard to emergency action plans (EAPs), site locator
forms (SLFs), housing checks, and staff security background certifications. The Peace Corps
established safety and security instructions to assist in these areas, but needs to provide
additional training and monitoring to improve implementation at posts around the world.

                                   Table 2. Percent of OIG Safety and Security
                                        Recommendations by Issue Type




Security Background Certifications. Failure to obtain security background certifications prior
to awarding personal services contracts increases safety and security risks at posts because posts
may inadvertently award a personal services contract to a high-risk employee. In FYs 2010 and
2011, we identified missing or out-dated security background certifications at approximately 56
percent of posts audited. 3 Posts would often neglect to obtain updated certifications and
sometimes fail to request the initial certifications before awarding the contracts. These issues
would often go unnoticed until a post audit, because headquarters had not developed an effective
process to ensure the certifications were completed before post awarded contracts and did not
provide the necessary oversight to verify that certifications were complete.

3
  We did not include FY 2009 because our procedures changed following the FY 2010 report on Peace Corps Volunteer Safety and Security
Program (IG-10-08-A) to include additional review of security background certifications.



Reoccurring Issues: Fiscal Years 2009 - 2011                                                                                            1
In response to our audit of Peace Corps’ Volunteer Safety and Security Program (IG-10-08-A),
the Office of Acquisition and Contracts Management updated the checklist for personal services
contracts to include the requirement that all security background certifications be emailed to the
Office of Safety and Security prior to awarding the contract. The Office of Safety and Security
retains copies of the certifications and maintains a database of the staff and certification dates. As
an additional control the names of all personal service contracts entered into the payment system
are automatically entered into the Office of Safety and Security database to match with
certifications. OIG will report on the efficacy of this new agency initiative through its upcoming
post audits.

Housing Checks. Our evaluations revealed that inspections of Volunteer houses were not
thoroughly completed and documented before Volunteers arrived at their sites; 50 percent of the
posts evaluated in FYs 2009-2011 did not comply with their self-developed housing criteria.
These criteria increase the safety and security of Volunteer housing by ensuring that the houses
have elements such as locking doors and windows; proper lighting; doors, windows, and roofs
that prevent unwanted entry; and safe proximity to neighbors and away from dangerous areas.
Housing deficiencies create potential security risks for Volunteers.

Common causes for noncompliance included housing
criteria that was unclear or not properly communicated
                                                           “50 percent of the posts
to staff involved in site development and housing          evaluated in FYs 2009-
identification; insufficient documentation to              2011 did not comply with
demonstrate that housing checks were completed and to      their self-developed
record issues that needed to be resolved before            housing criteria.”
occupancy; and lack of an oversight process to ensure
that housing checks were completed fully, timely, and accurately.

The agency does not have a standard housing checklist that all posts must use, although all posts
are required to develop housing criteria, inspect houses prior to occupancy, and maintain
documentation of the inspections. However, there is minimal oversight to ensure that posts are
complying with the agency’s policies and guidance, a finding that was reported in OIG’s 2008
Final Program Evaluation Report on Volunteer Safety and Security. 4 Although related
recommendations from the 2008 report have been closed, OIG country program evaluations find
that housing checks continue to be an area of weakness. Given the importance of Volunteer
safety and security, it is important for all posts to have clear, realistic housing criteria, make sure
staff are aware of the housing criteria and have completed required checks, and resolve housing
deficiencies before Volunteers arrive at their sites.

Emergency Action Plans and Consolidation Points. Peace Corps policy requires each post to
have an EAP that addresses emergency situations that are likely to impact the post. Posts are also
required to test the plan regularly and ensure staff and Volunteers are aware of their
responsibilities. OIG evaluations found that posts had developed the required EAP. However, 50

4
 Findings and recommendations from the 2008 Final Program Evaluation Report on Volunteer Safety and Security
were not included in the data analysis; however, the report provides a comprehensive evaluation of Volunteer
housing and its impact on Volunteer safety and security.


Reoccurring Issues: Fiscal Years 2009 - 2011                                                                   2
percent of the posts evaluated in FY 2009-2011 had other deficiencies related to EAPs and
consolidation points. Some posts were not testing their EAP or providing staff training as
frequently as required. Updated EAPs were not always distributed to Volunteers, duty officers,
embassy security personnel, and neighboring Peace Corps posts that served as evacuation points.
Volunteers at some posts did not know the location of their consolidation point, leaving them
unsure of where to go if the EAP was activated. These deficiencies could leave staff and
Volunteers unprepared to respond in an emergency.

Site Locator Forms. Posts use SLFs to gather communication and logistical information that
might be needed to support Volunteers in an emergency. This includes Volunteer contact
information, information on local police and medical facilities, and maps and directions to the
Volunteer’s site and consolidation point. Sixty-three percent of the posts evaluated in FY 2009-
2011 had insufficient SLFs. These forms were often missing key pieces of information, or
contained inaccurate or insufficient information to help someone locate Volunteers’ sites.

Several factors have contributed to poor SLFs. Non-compliant posts often lacked a process to
verify that Volunteers completed the form accurately. They also did not consistently enforce a
process to get timely updates from Volunteers when information changed. The agency has been
clarifying its policies and guidance related to SLFs, which might improve the quality of the
information in the SLFs. However, staff have expressed differing views about the purpose of the
SLF, which impacts people’s perception of the necessary levels of completeness and accuracy.
Some regard the SLF as an important method for staff and Volunteers to gather information that
might be needed in a health- or safety-related emergency. Others see the SLF as a community
integration exercise that could help Volunteers learn about their community but is not critical for
gathering contact information. Furthermore, the increasing use of cell phones and electronic
methods of storing Volunteer contact and site information has led some people to question the
usefulness of SLFs in an emergency.


POST MANAGEMENT AND OPERATIONS

Most posts we audited had not developed effective controls over common business processes:
including managing personal property5 and vehicles, complying with policies over imprest fund
management, and implementing the agencies controls over medical supplies. These processes
were largely manual operations that relied heavily on the knowledge and expertise of the staff.
The agency is improving through greater use of information technology, such as the new
property management system and the upgrades to financial systems. As the agency automates
more processes it will need to provide adequate training and continuous monitoring to ensure the
posts use the systems appropriately. In addition, the automated solutions can provide greater
efficiency when integrated with single points of data entry.

Property and Vehicle Management. Our audits identify vehicles and property management as
an area of weaknesses and each year we report property management in the management
challenges included in the agency’s performance and accountability report. At the end of FY
2011, the Peace Corps reported approximately $88.9 million in personal property, plant, and
5
    Personal property is tangible, Peace Corps-owned, moveable property located in the U.S. and overseas.



Reoccurring Issues: Fiscal Years 2009 - 2011                                                                3
equipment, including over 650 vehicles. During FYs 2009, 2010, and 2011 posts were provided
spreadsheets to maintain essential property and vehicle information. Such information includes
whether the items were in use, current location, vehicle mileage, and disposal data. With the
exception of information technology, inventories were conducted once a year. Some posts
developed their own processes to provide more continuous tracking of property, such as a
European post that placed a print out listing the property within each office on the wall of each
location and another an African post that had a current listing of cell phone numbers and
assignments. Despite the efforts of posts, we often found that the property and vehicle
spreadsheets were inaccurate and incomplete. The information provided to Peace Corps
headquarters management was often inconsistent with property records held by post.

Twenty-four out of 26 post audits identified weaknesses in property management. Posts
frequently did not understand the need to separate duties of custody, recordkeeping, and
inventory verification to prevent individuals from stealing or misusing property without going
undetected. Further, posts property records were not kept current and often contain discrepancies
between the log and the actual property. Without accurate and complete records it is difficult to
identify lost or stolen property. In one post, the country director found that over a period of five
years almost $5,000 worth of staff, Volunteer and Peace Corps property and cash was missing or
stolen (September 30, 2011 Semiannual Report to Congress (SARC). However, the full amount
could not be determined because of poor inventory records.

The agency recently implemented a new property management system. If used correctly the new
system will enforce the separation of duties through user roles, facilitate processes of property
bar-coding and inventorying, and provide greater detail for audit trails. In addition, headquarters
will have the capabilities of running reports to make informed decisions, identify deficient posts,
and detect potential fraud or abuse.

The posts also failed to establish adequate controls over property and vehicle sales to ensure the
government’s interest and taxpayer funds were protected. Our audits identified property being
sold to Peace Corps staff and family, causing us to question whether the sales were being
conducted properly. At a post in South America we determined that the Peace Corps sold
vehicles at $54,000 less than market value (September 30, 2010 SARC). The country director
pled guilty to one count of engaging in unauthorized activities in a matter affecting the U.S.
government. Peace Corps subsequently revised policy to disallow posts from conducting
property and vehicle sales unless specifically authorized by headquarters. However, we continue
to find that posts are conducting their own auction and not always receiving headquarters
approval.

         “At a post in South America we determined that the Peace
         Corps sold vehicles at $54,000 less than market value.”

Imprest Fund Management. The imprest fund provides the cash necessary to conduct post
operations. Often Peace Corps posts rely on cash to pay Volunteer host families, vendors who do
not accept credit cards, and travel advances. Posts in countries with poor banking infrastructures
may rely on the imprest fund for paying the majority of expenses. In FY 2011, Peace Corps posts



Reoccurring Issues: Fiscal Years 2009 - 2011                                                        4
were authorized a total of $1.7 million in imprest funds. The Peace Corps has reduced the
amount of imprest funds over the last three years by increasing the use of electronic fund
transfers and purchase cards. To manage these funds Peace Corps hires a foreign service
national, trained through the embassy, to conduct cashiering and collecting functions. At
overseas posts, the Peace Corps director of management and operations provides direct oversight
of imprest fund transactions and the country director monitors the overall operations.

In FY 2009 through FY 2011, we determined that 17 out of the 24 countries audited had findings
and recommendations regarding imprest fund management. Proper controls include safeguarding
the cash, separating duties, timely and accurate processes, and supervisor review. The most
common issues we identify include posts not conducting complete imprest fund verifications, not
clearing interim advances timely, and post not changing safe combinations annually.

Each year OIG investigates cases of cashiers or other staff embezzling cash and misusing imprest
funds. For example, OIG reported a program training specialist embezzling over $40,000 from a
post in Central America (September 30, 2010 SARC) and a cashier embezzling almost $4,000
from a post in the South Pacific (March 31, 2011 SARC). Because of the inherent risk of cash,
posts must ensure controls are in place and
operating effectively. The effective oversight of   “OIG reported a program
cashier operations and close monitoring of cash     training specialist embezzling
transactions can help reduce the risk of theft and  over $40,000 from a post in
misuse of Peace Corps funds.                        Central America.”

Medical Supplies. In FY 2008, the Peace Corps revised its medical supply policies and
procedures to provide greater separation of duties; track purchasing, dispensing, and disposing;
and mitigate the risk of loss or theft. During FYs 2009 – 2011, OMS sent emails, revised the
policy, and issued technical guidance to clarify the requirements. OMS also provided training to
the Peace Corps medical officers. However, posts continue to struggle with implementing the
new requirements.

                                               OMS’s continuous revision and clarification of the
    “Twenty out of 26 posts                    policy led some posts to become frustrated and
    (77 percent) audited during                disinterested in the process. Posts were not
    FY 2009-2011 had not                       consistently implementing the policies and often
    successfully implemented                   failed to develop the necessary processes and
    the medical supply policies.”              controls. Twenty out of 26 posts (77 percent)
                                               audited during FY 2009-2011 had not successfully
implemented the medical supply policies. Specifically, posts struggled to separate the medical
supply custody from the recordkeeping responsibilities; establish workflow processes between
the medical officer, acceptance point clerk, and medical supply inventory control clerk; and
maintain accurate and complete medical supply inventories. 6 Posts often continued to rely on the
medical assistant to track the medical supplies, because of their close relationship with the
medical officer and their role in securing and dispensing medical supplies. However, it is

6
 The acceptance point clerk receives the medical supplies and verifies the shipping list with the actual contents. The
medical supply inventory control clerk maintains the log of controlled and specially designated medical supplies.


Reoccurring Issues: Fiscal Years 2009 - 2011                                                                        5
because of such relationship that posts must appoint and train personnel outside of the medical
office to track and inventory medical supplies to ensure proper separation of duties.

Without the controls in place, the Peace Corps could not ensure the accuracy of medical supply
information and medical supplies were vulnerable to theft, loss, and spoilage. The lack of
oversight by non-medical staff contributes to opportunities for misconduct. For example, an OIG
investigation found a PCMO who was managing a medical practice for private gain, misusing
the Peace Corps post, a U.S. government facility, and engaging in the unauthorized use of
government resources (September 30, 2011 SARC). The misconduct went on for several years
without detection.


PROGRAMMING AND TRAINING

Programming and Volunteer training is at the heart of the Peace Corps’ operations and enables
the agency to achieve its mission. All posts have improvements that can be made in
programming and training; OIG evaluations reveal that common areas for improvement include
site development, adequacy and applicability of Volunteer training, and coordination with host
country ministries and project partners. Peace Corps programming and training varies from
country to country, and the agency does not have strict policy guidance in these areas, leaving it
up to each post to develop and implement a programming and training strategy and determine the
adequacy of its actions. The agency also lacks a way to provide consistent, timely training and
orientation to post staff and teach them about Peace Corps’ approach to programming and
training.

Site development. Placing Volunteers in sites where they can be safe, healthy, and productive is
essential to their success. Site development is a multi-faceted endeavor, and staff from multiple
departments must work together to identify sites where Volunteers have well-defined work
assignments, welcoming and supportive communities and host partners, and safe homes and
communities. Sixty-nine percent of the evaluation reports issued in FY 2009-2011 contained
recommendations related to site development. 7 Posts failed to establish and document clear site
development processes and ensure staff were aware of and trained on their responsibilities,
leading to inappropriate sites where Volunteers struggled to be productive and achieve their
programming goals. In addition, posts did not identify appropriate counterparts or provide
adequate orientation to explain the counterpart’s role.

Volunteer Training. Training is essential to providing Volunteers and trainees with the skills
they need to be productive at their sites. In FY 2009-2011, 75 percent of the posts evaluated had
training deficiencies that resulted in OIG recommendations. Language and technical training
were two areas that were commonly in need of improvement. In some posts, technical training
lacked relevance to Volunteers’ sites or was not hands-on enough, leaving Volunteers
unprepared to carry out their primary assignment. Some posts also needed to make
improvements in language training, particularly by improving local language instruction or


7
  This percentage does not include recommendations related to Volunteer housing checks, which were reported in
the Safety and Security section of this report.


Reoccurring Issues: Fiscal Years 2009 - 2011                                                                     6
providing better access to tutors or other self-directed language training methods for languages
that could not be accommodated during pre-service training (PST).

    “75 percent of the posts evaluated had training deficiencies…”

Posts also needed to improve implementation of the agency’s training design and evaluation
process either by developing competencies and learning objectives or developing better trainee
assessment methods. Without having a good monitoring and evaluation system, posts could not
accurately assess the effectiveness of their training programs and make needed improvements.
The diversity of Peace Corps’ operations makes it difficult for posts to develop and deliver
effective Volunteer training, particularly at posts that have numerous programming areas and
operate in countries with a multitude of local languages. Furthermore, without strong guidance
from headquarters, posts have struggled to develop monitoring and evaluation systems to
determine training adequacy. This makes it difficult for posts to develop effective training
because they cannot accurately determine what is not working and make the necessary changes.
The agency’s Focus In/Train Up initiative 8 should help improve training if posts are willing to
make the changes needed to focus programming and deliver relevant training.

Host Country/Project Partner Coordination. Country program evaluations identified post
relationships with host country ministries and project partners as a common programming
element that needs improvement. Some posts failed to engage key project partners in
programming, including project design and implementation. They also lacked methods to
communicate project results and Volunteer achievements to their major project partners.
Although some staff developed relationships with project partners and communicated with them
as the need arose, not all posts had taken full advantage of formal communication methods that
brought multiple parties together, such as project advisory committees (PACs). Without a
formalized, structured way to work with project partners, posts were not able to take full
advantage of the host country partners’ expertise and ensure their needs were accounted for in
the post’s programming.

Some posts also failed to develop and maintain memorandums of understanding (MOUs) with
host country ministries and project partners. Not having clear, updated MOUs can lead to
confusion about the Volunteer’s role. MOUs enable the post to specify appropriate Volunteer
activities and any expectations the Peace Corps has of the Volunteer’s community or workplace.

Post staff cited a variety of reasons why they did not fully engage partners, including lack of
funds to conduct PAC meetings and lack of partner interest in participating in meetings and
developing MOUs. Although the agency encourages posts to develop relationships and
coordinate with host country ministries and project partners, there are no requirements to do so
and no oversight mechanism to make sure partners’ needs are being met.

The agency created the Office of Strategic Partnerships in February 2012 to assist posts in
developing and implementing partnerships.

8
 The Focus In/Train Up strategy calls upon the Peace Corps to scale up highly effective Volunteer projects and
work activities to maximize Peace Corps’ impact.


Reoccurring Issues: Fiscal Years 2009 - 2011                                                                     7
                                   IMPROVING OPERATIONS
Strong leadership and effective management are essential to running a well-performing post.
Peace Corps headquarters must also establish the policies, processes, systems, and controls that
support and oversee the posts. In reviewing the reoccurring issues, OIG identified patterns of
issues and areas of weakness that require additional support, such as policy clarification,
additional training, improved management tools and technology, and additional headquarters’
oversight.

Policy clarification
The Peace Corps updated and revised many of its policies during FYs 2009-2011. However, at
times, the policies were not communicated to posts in a way that facilitated effective
implementation.

    •    Medical supplies: As previously mentioned, staff were confused by the agency’s updated
         medical supply policy and procedures, which has hindered its implementation.
         Headquarters must use supplemental guidance, training, and other means of
         communication to assist posts in achieving the desired results.

    •    Site locator forms: OIG also believes the agency could benefit from clarifying and
         communicating the purpose of the SLF and the expectations for accuracy and
         completeness.

Staff training
Overseas staff training is not available to every staff member and the agency lacks an alternate
mechanism for orienting new post staff members to ensure they have the information they need
to do their jobs and support Volunteers. Because the agency lacks a comprehensive, standardized
orientation and training program for all overseas staff, each post decides what information will
be provided to new employees and contractors. There is no assurance that new staff are aware of
important manual sections and guidance in areas such as Volunteer safety and security, health,
programming, and training. This report identified several reoccurring issues that highlight the
need for improved staff training to bring awareness to the agency’s policies and procedures:

    •    Site development: Although the agency has produced guidance related to site
         development, the agency has not established a process to ensure that staff are aware of
         the guidance and understand how to implement it at their post.

    •    Housing checks: Without a thorough overview of the Peace Corps’ approach to safety
         and security, staff may not understand the importance of completing the required housing
         checks.

Providing overseas staff with timely training and orientation is essential in helping them
understand the guidance available and how they can effectively carry out their responsibilities.




Reoccurring Issues: Fiscal Years 2009 - 2011                                                       8
Management Tools and Technology
Headquarters must provide posts with the management tools and information technology needed
to ensure the agency’s policies and procedures are carried out consistently around the world.
Management tools include templates, spreadsheets, and databases that capture the required
information and provide useful reports in making performance and budget decisions. Without
these tools, posts develop their own forms, databases, and other mechanisms to manage day-to-
day operations. However, these solutions are often inefficient, duplicative, and do not always
meet the needs of the posts and headquarters. Examples of areas in need of additional
management tools include:

    •    Volunteer training: All posts are expected to evaluate their training programs, but the
         agency has not provided associated tools and templates. Without support from
         headquarters, posts have struggled to develop monitoring and evaluation systems that can
         help them determine training adequacy.

    •    Property management: Peace Corps recently implemented a property management system
         to record personal property and electronically conduct physical inventories. The Office of
         Management also provided a handbook and initial training. However, posts may require
         additional support in developing processes that ensure property is entered in the database
         timely, accurately, and completely; individuals understand their roles and responsibilities;
         and information is used to make management decisions on property purchases,
         utilization, and sales.

Oversight and Monitoring
Continuous monitoring helps to ensure posts are complying with regulations and the agency is
receiving the expected results for the controls it institutes. Monitoring should be done at posts
and by headquarters. Monitoring should provide management with information about post’s
performance and compliance to identify areas where posts can improve and where headquarters
can provide additional support or resources to enhance controls and efficiencies. The
Administrative Management Control Survey (AMCS) is provided to country directors and
designated staff to conduct periodic self-appraisals of administrative, financial, training, and
program management practices at post. However, this tool is not consistently used to identify
weaknesses and improve operations. Examples of areas that needed additional oversight
included:

    •    Security background certifications: Since developing an application to track and maintain
         security background certifications, headquarters must continue to monitor post’s
         compliance and ensure all staff, including part-time contractors, receive background
         checks before contracting.

    •    Property management: Because of inaccurate and incomplete property reports, the Peace
         Corps could not conduct meaningful analysis of property purchases, sales, and disposals.
         Management needs to utilize the new property management system to analyze trends,
         pull exception reports that identify anomalies and high risk areas, and identify
         inaccuracies in the property records.



Reoccurring Issues: Fiscal Years 2009 - 2011                                                        9
                                 SCOPE AND METHODOLOGY
SCOPE

OIG issued post audits and country evaluations for 42 overseas posts during FYs 2009 through
2011.

                       Table 3. List of OIG Reports issued in FYs 2009 through 2011
    Project                                    Project                           Project
     Code          Project Name                 Code       Project Name           Code        Project Name
IG-09-01-A        Audit of               IG-10-01-A      Audit of               IG-11-01-A   Audit of
                  PC/Swaziland                           PC/Burkina Faso                     PC/Mexico
IG-09-02-E        Evaluation of          IG-10-02-E      Evaluation of          IG-11-02-A   Audit of
                  PC/Nicaragua                           PC/Turkmenistan                     PC/Ethiopia
IG-09-03-E        Evaluation of          IG-10-03-A      Audit of PC/Cape       IG-11-02-E   Evaluation of
                  PC/Dominican                           Verde Island                        PC/Ethiopia
                  Republic
IG-09-04-A        Audit of               IG-10-04-A      Audit of PC/Tanzania   IG-11-03-A   Audit of PC/Togo
                  PC/Guatemala
IG-09-05-E        Evaluation of          IG-10-05-SR     Special Report on      IG-11-03-E   Evaluation of
                  PC/Guyana                              PC/Ecuador 9                        PC/Jamaica
IG-09-06-A        Audit of               IG-10-06-A      Audit of PC/Suriname   IG-11-04-A   Audit of PC/Belize
                  PC/Samoa
IG-09-07-FUA      Audit of               IG-10-06-E      Evaluation of          IG-11-04-E   Evaluation of
                  PC/Uganda                              PC/Morocco                          PC/Cambodia
IG-09-09-A        Audit of               IG-10-07-A      Audit of               IG-11-05-A   Audit of
                  PC/Guinea                              PC/Mongolia                         PC/Mozambique
IG-09-10-A        Audit of               IG-10-09-E      Evaluation of          IG-11-05-E   Evaluation of
                  PC/Morocco                             PC/Suriname                         PC/Romania
IG-09-11-FUA      Audit of               IG-10-10-A      Audit of PC/Paraguay   IG-11-06-A   Audit of
                  PC/Senegal                                                                 PC/Ukraine
IG-09-12-A        Audit of               IG-10-10-E      Evaluation of          IG-11-06-E   Evaluation of
                  PC/Nicaragua                           PC/Togo                             PC/Swaziland
IG-09-13-E        Evaluation of          IG-10-11-A      Audit of PC/Moldova    IG-11-07-A   Audit of
                  PC/Ghana                                                                   PC/Albania
IG-09-14-E        Evaluation of          IG-10-12-A      Audit of PC/Kenya      IG-11-07-E   Evaluation of
                  PC/Belize                                                                  PC/Liberia
IG-09-15-E        Evaluation of                                                 IG-11-08-A   Audit of
                  PC/Jordan                                                                  PC/Rwanda
                                                                                IG-11-09-A   Audit of
                                                                                             PC/Panama

METHODOLOGY

In addition to analyzing the management and operations of domestic offices, OIG Audit and
Evaluation Units conduct reviews of the agency’s field activities at overseas posts. Audits are

9
 The Special Report on PC/Ecuador was conducted by an auditor using the audit methodology and is included as an
audit for the purposes of this report.


Reoccurring Issues: Fiscal Years 2009 - 2011                                                                 10
conducted under the direction and guidance of the assistant inspector general for audit and in
accordance with Generally Accepted Government Auditing Standards. The Audit Unit uses a
risk-based assessment to select overseas posts to review for operational efficiency and
effectiveness, financial stewardship, and compliance with agency policies and federal
regulations. At overseas posts, auditors review various operations, including imprest fund
management and cashiering, acquisitions and contracts, personal property management, medical
supply control, and personnel management. OIG’s overseas post audits identify reoccurring
issues and trends. Its reports frequently contain recommendations to headquarters for
strengthening controls to prevent and detect systemic weaknesses.

Evaluations are conducted under the direction and guidance of the assistant inspector general for
evaluations and in accordance with the Quality Standards for Inspections published by the
Council of the Inspectors General on Integrity and Efficiency. For country program evaluations,
OIG uses the following researchable questions to guide its work:

     •   To what extent has post developed and implemented programs to increase host country
         communities’ capacity?
     •   Does training prepare Volunteers for Peace Corps service?
     •   Has the post provided adequate support and oversight to Volunteers?
     •   Are post resources and agency support effectively aligned with the post’s mission and
         agency priorities?
     •   Is the post able to adequately administer the PEPFAR program, support Volunteers, and
         meet its PEPFAR objectives? (when applicable)

When we issued a preliminary report we tracked each recommendation using one of the
following category codes. 10

                                   Table 4. Recommendation Categories
Category                              Definition
Acquisitions and Contracts               Acquisition and purchase related recommendations not included in separate
                                         categories. Includes obligations and liquidations, non-cashier vouchers,
                                         purchase card, and contracts other than personal services contracts.
Agency Performance Reporting             Recommendations regarding the Volunteer Reporting Tool and Volunteers’
                                         periodic performance reports (i.e., VRFs and quarterly/trimester reports),
                                         including staff feedback.
Billings and Collections                 Recommendations regarding billing and collection functions such as billing
                                         logs, separation of billing and collecting roles, billing for personal use of
                                         telephones and vehicles, and collection of host country contributions.
Country Entry/                           Recommendations regarding the assessment process and related follow-up
Re-entry                                 for new country entries and re-entries.
CFO Audit                                Recommendations issued during the audit of the agency financial statements.
Cross-Cultural Understanding             Recommendations regarding Volunteers’ ability to integrate into their
                                         communities.
FISMA                                    Recommendations issued during the FISMA audit.


10
  Recommendations are also tracked by the Administrative Management Control Survey (AMCS) categories used
by posts to conduct their self-appraisal of administrative, financial, training, and program management practices.


Reoccurring Issues: Fiscal Years 2009 - 2011                                                                        11
Grant Programs                           Recommendations regarding the management and coordination of grant
                                         programs such as Peace Corps Partnership Program and Small Project
                                         Assistance. Do NOT include VAST, it belong in PEPFAR.
Host Country/Project Partner             Recommendations regarding coordination with the host country government
Coordination                             and other project partners, such as MOUs, country agreements, and PACs.
Imprest Fund                             Recommendations regarding imprest fund management; including
                                         reconciliations, cashier responsibilities, interim advances, alternate and
                                         subcashiers, physical security of cashier cage and imprest safe, and accuracy
                                         and completeness of cashier vouchers.
Information Technology                   Recommendations concerning IT security, user access, general and
                                         application controls, and safeguarding of data. Do NOT include IT property
                                         recommendations, those belong in Property Management. FISMA related
                                         recommendations are tracked separately.
Leases                                   Recommendations regarding lease competition, contract administration, and
                                         documentation completeness.
Medical Supplies                         Recommendations concerning medical supply procurement, custody,
                                         inventorying, dispensing, and disposals.
Other                                    Recommendations that do not meet the definitions of the other categories.
Peace Corps Response and Transfer        Recommendations regarding the Peace Corps Response program or
Volunteers                               Volunteer transfers.
PEPFAR                                   Recommendations regarding a post’s PEPFAR-related programming.
                                         Typically Evaluation related. Does not include funding-related issues (there
                                         is a separate category for this).
PEPFAR 11                                Recommendations regarding the management of PEPFAR funds including
                                         issues budgets presented in COPs, improper classification of funds,
                                         disallowable costs, and VAST fund administration. Typically Audit related.
Personnel Management                     Recommendations regarding staff (U.S., FSN, and PSC) human resource
                                         practices, including over/under staffing, time and attendance, performance
                                         appraisals, staff training/development, leadership vacancies, and succession
                                         planning.
Personal Services Contracts              Recommendations regarding PSC contract calculations, approvals, and
                                         documentation completeness. Do NOT include security certifications, those
                                         belong in Safety and Security.
Post leadership and Management           Recommendations regarding the post’s leadership and guidance, including
                                         staff communication, office cohesion and morale, and the existence/quality
                                         of written policies and procedures for post operations.
Strategic Planning and Budgeting         Recommendations related to the post’s IPBS and operations plans, including
                                         the planning process and growth strategies.
Programming                              Recommendations related to the post’s overall programming direction and
                                         implementation, including sustainability, project plans, VADs, and the post’s
                                         ability to meet its project objectives. Recommendations related to PCVL
                                         assignments will often fall into this category (not personnel management).
Property Management                      Recommendations regarding the procurements, disposal, and management of
                                         personal property, including the property database, physical inventory,
                                         reports of excess and loss. Do NOT include vehicle specific
                                         recommendations, those belong in Vehicle Fleet Management.




11
  All recommendations regarding PEPFAR are tracked using the PEPFAR category. A second category level is
used to differentiate between recommendations related to PEPFAR programmatic and PEPFAR fund management.


Reoccurring Issues: Fiscal Years 2009 - 2011                                                                         12
Safety and Security                      Recommendations regarding safety and security of Peace Corps and
                                         Volunteers, including overall emergency preparedness, emergency action
                                         plans, site locator forms, duty officer system, crime data reporting, incident
                                         response, physical security, staff security certifications, and incident
                                         reporting. Do NOT include IT security, those belong in Information
                                         Management. Do not include housing checks; those belong in site
                                         development.
Site development                         Recommendations regarding site development, including site selection, site
                                         histories, housing and safety/security checks, counterpart identification,
                                         setting appropriate expectations with Volunteers, and preparing the
                                         communities who will receive them.
Site visits                              Recommendations regarding staff visits to Volunteer sites including
                                         frequency, duration, and support received.
Travel                                   Recommendations regarding travel plans and documentation; including
                                         travel authorizations, vouchers and supporting documents, and compliance
                                         with federal travel regulations. Include international and in-country travel
                                         recommendations.
Vehicle Fleet Management                 Recommendation regarding vehicle procurement, disposal, and management;
                                         including usage logs and approvals, vehicle status report, maintenance
                                         records.
Volunteer Medical Support                Recommendations regarding the adequacy of the medical support provided
                                         to Volunteers, including medical records and confidentiality, medical
                                         evacuation plans, and quality and availability of medical care.
Volunteer Support                        Recommendations regarding Volunteer support that do not fall into the other
                                         categories. Includes staff-Volunteer communications and relationships, the
                                         VAC, and support for Volunteers of diverse backgrounds
Volunteer Training                       Recommendations related to the planning, development, and adequate
                                         implementation of Volunteer training, including PST, ISTs, and other
                                         trainings provided by the post. Includes language, medical, technical, and
                                         safety and security training.
Volunteer/Trainee Allowances             Recommendations regarding the adequacy, accuracy, and completeness of
                                         Volunteer/Trainee Allowances (including living allowances, settling in
                                         allowance, and other reimbursements) and the surveys that support the rates.


To develop this report, we identified the number of audit and evaluation reports containing
recommendations on specific subject areas using the category code. We used the data to identify
common issues from FYs 2009-2011. Some categories may have experienced changes because
the focus of our audits or evaluations evolved. For example, in 2008, the Audit and Evaluation
Units significantly changed their scope and methodology and have continued to make
adjustments based on changes in agency policy, guidance, and areas of strategic interest. We
accounted for such changes when assessing the reoccurring issues. This report presented those
issues that we believe continue to be problems for posts and require management’s attention to
help remediate.




Reoccurring Issues: Fiscal Years 2009 - 2011                                                                        13
                                          SUPPORTING DATA
The following table represents the percent of audit reports issued during FYs 2009-2011 that
contained recommendations in each category tracked by OIG.

               100%

                90%

                80%

                70%

                60%

                50%

                40%

                30%

                20%

                10%

                 0%




Reoccurring Issues: Fiscal Years 2009 - 2011                                                   14
The following table represents the percent of country program evaluation reports issued during
FYs 2009-2011 that contained recommendations in each category tracked by OIG.

             100%
              90%
              80%
              70%
              60%
              50%
              40%
              30%
              20%
              10%
               0%




Reoccurring Issues: Fiscal Years 2009 - 2011                                                     15
Help Promote the Integrity, Efficiency, and
     Effectiveness of the Peace Corps
Anyone knowing of wasteful practices, abuse, mismanagement,
fraud, or unlawful activity involving Peace Corps programs or
personnel should call or write the Office of Inspector General.
    Reports or complaints can also be made anonymously.




                      Contact OIG

                                Hotline:
       U.S./International:       202.692.2915
       Toll-Free (U.S. only):    800.233.5874

       Email:                    OIG@peacecorps.gov
       Web Form:                 www.peacecorps.gov/OIG/ContactUs

       Mail:                     Peace Corps Office of Inspector General
                                 P.O. Box 57129
                                 Washington, D.C. 20037-7129

                   Main Office: 202.692.2900
